No. __-____

In the Supreme Court of the United States
ROBERT H. HEALY,
v.

Petitioner,

LEDURA WATKINS,
Respondent.
ON PETITION FOR WRIT OF CERTIORARI
TO THE SIXTH CIRCUIT COURT OF APPEALS
CERTIFICATE OF SERVICE OF PETITION FOR A
WRIT OF CERTIORARI
CARSON J. TUCKER, JD, MSEL
Counsel of Record
LEX FORI, PLLC
DPT #3020
1250 W. 14 Mile Rd.
Troy, MI 48083-1030
(734) 887-9261
cjtucker@lexfori.org

CERTIFICATE OF SERVICE OF PETITION
FOR A WRIT OF CERTIORARI
Pursuant to Supreme Court Rules and further
Orders of the Court dated April 15, 2020 undersigned
sent on the below date by first class mail and/or by
email if electronic service was consented to a copy of
Petitioner’s Petition for Writ of Certiorari to the Sixth
Circuit Court of Appeals in the above-captioned case
to counsel as follows:
ATTORNEYS FOR RESPONDENT:
Wolf Mueller, Esq.
Mueller Law Firm
41850 W. 11 Mile Road
Suite 101
Novi, MI 48375
248-489-9653
Fax: 248-347-6630
Email: wolf@wolfmuellerlaw.com
Respectfully submitted,
Carson J. Tucker
Lex Fori, PLLC
Attorney for Petitioner
(734) 887-9261
Dated: August 13, 2021

